Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Blood Glucose Test Strips:
  Marketing to Medicare Beneficiaries




                   JUNE GIBBS BROWN
                    Inspector General

                        JUNE 2000
                      OEI-03-98-00231
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                   HEADQUARTERS

Robert Katz, Project Leader
                             Stuart Wright, Program Specialist

Nancy Molyneaux, Program Analyst
                        Barbara Tedesco, Mathematical Statistician

Cynthia Hansford, Program Assistant
                     Linda Moscoe, Technical Support Staff

Lauren McNulty, Program Analyst
                         Scott Horning, Technical Support Staff

Dave Tawes, Program Analyst

Amy Sernyak, Program Analyst


REGION IV

John Mejia, Office of Audit Services



     To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
             Reports are also available on the World Wide Web at our home page address:

                                    http://www.dhhs.gov/progorg/oei
                         EXECUTIVE SUMMARY

PURPOSE

         To examine how marketing practices affect Medicare beneficiaries who use diabetic
         testing supplies. This report serves as a companion to a recently issued draft report,
         “Medicare Payments for Blood Glucose Test Strips” (OEI-03-98-00230).


BACKGROUND

         In conjunction with an inspection which examined the propriety of Medicare payments
         for blood glucose test strips, we gathered information relating to the marketing of these
         supplies. This information encompassed marketing practices targeted to the diabetic
         Medicare population as well as the diabetic community in general.

         We obtained marketing information from a 1997 sample of Medicare beneficiaries and the
         suppliers who provided the diabetic supplies to these beneficiaries. The information was
         obtained from the beneficiaries through telephone interviews. We mailed survey forms to
         the suppliers which included questions relating to their marketing practices. In addition,
         we collected current examples of diabetic supply advertisements in four metropolitan
         areas.

         Marketing of diabetic testing supplies to the Medicare population is of vital interest
         because of sharply increasing payments. Medicare allowances for test strips more than
         doubled between 1994 and 1997, increasing from about $102 million in 1994 to $220
         million in 1997. Allowances exceeded $314 million in 1998. The full impact of an
         expansion of eligibility requirements, which took effect in 1998, could lead to an even
         greater increase in payments in future years.


FINDINGS

Diabetic supply advertisements offer inducements and can be misleading.
Coinsurance information in diabetic supply advertisements can be misleading and we found that
suppliers did not always collect coinsurance from beneficiaries. Diabetic supply advertisements
also offer inducements and beneficiaries reported receiving incentives such as free monitors.

Beneficiaries receive test strips automatically from mail-order suppliers. We found
that many beneficiaries received their test strips from suppliers automatically even after the
guidelines issued on July 1, 1998 prohibited automatic shipping.

Marketing of Blood Glucose Test Strips            1                                      OEI-03-98-00231
RECOMMENDATIONS

To address the vulnerabilities identified in this report, we recommend that the
Health Care Financing Administration:

         Issue bulletins reminding suppliers who routinely waive deductibles and/or
         coinsurance or who engage in misleading advertising practices that they may be in
         violation of the Medicare and Medicaid anti-kickback law. Suppliers should be
         advised to seek legal counsel if they have any questions or concerns regarding waivers of
         deductibles and/or coinsurance or the propriety of marketing or advertising materials.

         Remind suppliers that beneficiaries must specifically request new supplies of test
         strips before they are dispensed. Suppliers must not automatically dispense new
         quantities of test strips on a predetermined basis even if beneficiaries have authorized such
         procedures previously.

         Promote supplier concurrence and cooperation with the Office of Inspector
         General’s Compliance Program Guidance for the Durable Medical Equipment,
         Prosthetics, Orthotics and Supply Industry. Suppliers who establish a compliance
         program in accordance with the guidelines should be able to maintain an ethical and lawful
         business operation.

         Advise beneficiaries, as part of its outreach service, to report any instances of
         fraudulent or abusive practices (such as misleading advertising and excessive or
         unrequested deliveries of test strips) involving their home blood glucose monitors,
         test strips, or related supplies to their DMERCs.

AGENCY COMMENTS

The HCFA concurred with our recommendations. As part of an intensive campaign to reduce and
eliminate fraudulent and abusive supplier practices, including those detailed in our findings, HCFA
cited a number of ongoing and planned initiatives. These initiatives included, (1) plans to discuss
routine waivers of deductibles and coinsurance in addition to misleading advertising at the 2000
Beneficiary Integrity Conference, (2) reminding suppliers in DMERC bulletins and newsletters
that they must not automatically dispense new supplies of test strips unless specifically requested
by beneficiaries or their caregivers, (3) working with the National Supplier Clearinghouse to
include language in the notifications sent to suppliers awarding them billing numbers to read and
adhere to the OIG’s Compliance Program Guidance for the Durable Medical Equipment,
Prosthetics, Orthotics and Supply Industry, and (4) continuing beneficiary outreach efforts, which
include tips on identifying improper practices involving home blood glucose monitors and related
supplies. The full text of HCFA’s comments can be found in Appendix B.


Marketing of Blood Glucose Test Strips             2                                     OEI-03-98-00231
                             TABLE OF CONTENTS

                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Misleading advertising . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Automatic mailing of supplies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES


          A: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          B: Health Care Financing Administration Comments . . . . . . . . . . . . . . . . . . . . . . . . . . 17





Marketing of Blood Glucose Test Strips                              3                                                   OEI-03-98-00231
                                     INTRODUCTION

PURPOSE

         To examine how marketing practices affect Medicare beneficiaries who use diabetic
         testing supplies. This report serves as a companion to a recently issued draft report,
         “Medicare Payments for Blood Glucose Test Strips” (OEI-03-98-00230).


BACKGROUND

         In conjunction with an inspection which examined the propriety of Medicare payments
         for blood glucose test strips, we gathered information relating to the marketing of these
         supplies. This information encompassed marketing practices targeted to the diabetic
         Medicare population as well as the diabetic community in general.

         Marketing of diabetic testing supplies to the Medicare population is of vital interest
         because of sharply increasing payments. Medicare allowances for test strips more than
         doubled between 1994 and 1997, increasing from about $102 million in 1994 to $220
         million in 1997. These allowances include the 20 percent coinsurance which beneficiaries
         are responsible for paying. Allowances exceeded $314 million in 1998. Preliminary
         figures indicate that allowances will exceed $380 million in 1999. The full impact of an
         expansion of eligibility requirements, which took effect in 1998, could lead to an even
         greater increase in payments in future years.

Medicare Coverage of Home Blood Glucose Monitors and Test Strips

         Title XVIII of the Social Security Act prescribes coverage requirements under Part B of
         the Medicare program. Part B covers services and items including durable medical
         equipment (DME). Claims for home blood glucose monitors and test strips are covered
         under Part B within the DME benefit. Suppliers submit claims for reimbursement to
         DME regional carriers (DMERCs). The four DMERCs process all Medicare claims for
         prosthetics, orthotics, medical supplies, and other DME. They are under contract with
         the Health Care Financing Administration (HCFA), the agency which administers the
         Medicare program.

         A blood glucose monitor and the supplies needed to use it effectively are covered if the
         beneficiary meets these requirements: 1) the patient is under a physician’s care for
         diabetes; 2) the glucose monitor and related accessories and supplies have been ordered



Marketing of Blood Glucose Test Strips            4                                      OEI-03-98-00231
         by the patient’s treating physician; 3) the patient (or patient’s caregiver) has been trained
         to use the required equipment in an appropriate manner; and 4) the equipment is designed
         for home rather than clinical use.

         Prior to July 1, 1998, Medicare coverage for home blood glucose monitors and test strips
         was restricted to beneficiaries with Type 1, or insulin-treated diabetes. Medicare
         expanded coverage on that date to beneficiaries with Type 2, or non-insulin treated
         diabetes. Also prior to the issuance of the new guidelines, suppliers could send shipments
         of test strips to beneficiaries automatically. The new guidelines prohibit this practice.

Marketing Practices

         Medicare beneficiaries who utilize medical supplies on a repeated basis, such as blood
         glucose test strips, may be strongly influenced by marketing practices. Manufacturers’
         rebates, special dealer sales, coupons, discounts, and similar financial inducements are all
         designed to sway consumer product choice. Entities interested in reaching diabetics who
         use testing supplies resort to a variety of media to promote their products, including
         radio, television, specialized periodicals, and newspapers.

         Advertising incentives which indicate or imply a routine waiver of coinsurance or
         deductible could be in violation of 42.U.S.C. 1320a-7b(b), the Medicare and Medicaid
         anti-kickback statute. According to an Office of Inspector General Medicare Fraud
         Alert (94-04), such routine waivers of coinsurance or deductibles are unlawful because
         they could result in (1) false claims, (2) violations of the anti-kickback statute, and (3)
         excessive utilization of items and services paid for by Medicare. Anyone who routinely
         waives copayments or deductibles can be criminally prosecuted and excluded from
         participating in Medicare and State health care programs.

         In addition, 42.U.S.C. 1320a-7a(a) (5) prohibits a person from offering or transferring
         remuneration to a beneficiary that such person knows or should know is likely to
         influence the beneficiary to order items or services from a particular provider or supplier
         for which payment may be made under a Federal health care program. “Remuneration” is
         defined as including a waiver of coinsurance and deductible amounts, with exceptions for
         certain financial hardship waivers, which are not prohibited.

         Beneficiaries’ choice of test strips and related supplies can also be influenced by non-
         economic factors. Many advertisements stress special supplier services, such as
         overnight delivery, no paperwork, training in the use of blood glucose monitors and test
         strips, and frequent follow-up contacts to ensure that supplies are adequate and operating
         satisfactorily.

         Prior to the completion of this inspection, the Office of Inspector General issued a
         document entitled, Compliance Program Guidance for the Durable Medical Equipment,


Marketing of Blood Glucose Test Strips             5                                      OEI-03-98-00231
         Prosthetics, Orthotics and Supply Industry. This document can be located on the
         Internet at http://www.hhs.gov/progorg/oig/modcomp/cpgfinl.htm. The Guidance, which
         was prepared in consultation with health care trade organizations, was designed to
         promote a higher level of ethical and legal conduct among providers of medical
         equipment and supplies. The Guidance details specific problems which we cite in this
         report, such as providing routine waivers of deductibles and/or coinsurance.


METHODOLOGY

Sampling

         We selected a simple random sample of 555 Medicare beneficiaries with paid claims for
         blood glucose test strips in 1997. The beneficiaries were selected from a 1 percent DME
         claims file developed from HCFA’s National Claims History File. We defined our sample
         population as those patients whose claims for test strips averaged $50 per month or
         more. In order to compute point estimates and confidence intervals for inappropriate and
         questionable claims, we treated the beneficiary sample as a single-stage cluster sample in
         which each of the beneficiaries was a cluster and their 1997 claims were the unit of
         analysis. Estimates were made only for the universe of beneficiaries with claims
         averaging $50 a month or more.


         We checked Medicare records to ascertain if any of our sampled beneficiaries were
         shown as deceased. We removed these beneficiaries from the sample. In addition, we
         removed beneficiaries from the sample whose test strips were provided by suppliers under
         investigation. The remaining sample consisted of 472 Medicare beneficiaries. In all, 310
         suppliers had submitted 2,184 claims for Medicare reimbursement for these beneficiaries.
         Since many of the 310 suppliers provided test strips for multiple beneficiaries, our unique
         supplier-beneficiary combination totaled 540.

Data Collection and Analysis

         Our primary data collection sources for this report were our sample beneficiaries and
         their test strip suppliers. Many of the questions we asked beneficiaries and suppliers in
         our survey instruments were relevant to test strip marketing practices. Additionally,
         many beneficiaries and suppliers provided comments and information pertinent to
         industry marketing practices. We did not, as part of this inspection, contact
         manufacturers, wholesalers, distributors, or similar entities. However, we reviewed
         media sources from four metropolitan areas--Atlanta, GA; Boston, MA; Kansas City,
         MO; and Philadelphia, PA--and we obtained current examples of advertising relating to
         blood glucose test strips and accessories.



Marketing of Blood Glucose Test Strips            6                                      OEI-03-98-00231
         Beneficiary information. We collected information from beneficiaries via telephone
         interviews. Questions included beneficiaries’ diabetic medical care and treatment,
         frequency of blood sugar testing, how supplies were obtained, and supplier marketing
         practices. We completed telephone interviews with 313 of the 472 beneficiaries, a 66
         percent response rate. The interviews were conducted from December 1998 to June
         1999.

         Supplier information. We mailed 540 survey forms to suppliers, one for each
         beneficiary for whom a claim was filed. In addition to asking suppliers about the types of
         equipment and supplies provided to beneficiaries, we also included questions about their
         business and marketing practices. Of the 540 surveys mailed, 469, representing 1,902
         claims, were completed and returned.

         Marketing information. We obtained marketing information from a 1997 sample of
         Medicare beneficiaries and the suppliers who provided the diabetic supplies to these
         beneficiaries. The information was obtained from the beneficiaries through telephone
         interviews. We mailed survey forms to the suppliers which included questions relating to
         their marketing practices. In addition, we collected current examples of diabetic supply
         advertisements in four metropolitan areas.

         This study was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Marketing of Blood Glucose Test Strips            7                                     OEI-03-98-00231
                                          FINDINGS


Diabetic supply advertisements offer inducements and can
be misleading
Coinsurance information in diabetic supply advertisements can be misleading

         During the course of the inspection, we reviewed diabetic supply advertisements in
         Atlanta, GA; Boston, MA; Kansas City, MO; and Philadelphia, PA. Our review of
         advertisements for diabetic testing supplies revealed examples of misleading wording and
         misinformation. The two examples below suggest that beneficiaries can get their test
         strips at no cost, including no coinsurance payments.


                            DIABETIC PATIENTS!! (Type 1 & Type 2)
                             If you have Medicare or Private Insurance,
                                 You may be eligible to receive your:
                                         DIABETIC SUPPLIES AT
                                           NO COST TO YOU!
                                          F or mo re inf or ma tion c all
                                                1-800-###-#####




                                                           Diabetes
                                                 Paying for your testing supplies.



                                                  Company name... 1-800-###-####




Marketing of Blood Glucose Test Strips                 8                              OEI-03-98-00231
Deductibles and coinsurance, which beneficiaries are responsible for paying, were rarely
mentioned in advertisements. Sometimes, small print carried this terse message: “Deductibles
and co-pay may apply.”

Suppliers did not always collect coinsurance from beneficiaries

         In our interviews with beneficiaries, we found that some, as stated in the advertisements,
         did not pay anything for their test strips. Of those who did not pay for their test strips up
         front, about 8 percent said they did not pay any coinsurance and that coinsurance was not
         paid by Medicaid or other insurance. A copayment for 100 test strips would be
         approximately $14. A few suppliers surveyed said that they did not collect coinsurance.
         Reasons suppliers gave for not collecting or billing for coinsurance included, “patient
         indigent” and “patient qualifies for financial hardship.” Two suppliers stated simply, “We
         did not bill for coinsurance.”

         Undoubtedly, cost is an important consideration for many beneficiaries, and if one
         supplier collects coinsurance and another supplier does not, the supplier who does not
         clearly has a competitive edge over rivals. One supplier complained that most of their
         patients said their previous suppliers had “...automatically waived their co-payments and
         deductibles.” The patient has “nothing to lose,” the supplier added, indicating that
         patients can simply choose a supplier who will not bill them for these amounts.

         If suppliers use advertising inducements which indicate or imply a routine waiver of a
         coinsurance or deductible they could be in violation of the Medicare and Medicaid anti-
         kickback statute, 42 U.S.C. 1320a-7b(b). This statute makes it illegal to offer, pay,
         solicit, or receive anything of value as an inducement to generate business payable by
         Medicare or Medicaid. When providers, practitioners, or suppliers forgive financial
         obligations for reasons other than genuine financial hardship of the particular patient, they
         may be unlawfully inducing that patient to purchase items or services from them. In
         addition, the Health Insurance Portability and Accountability Act (Section 1128A)
         provides civil monetary penalties for anyone offering “remuneration,” including “the
         waiver of coinsurance or deductible amounts” as an inducement to use an item or service.
         Such penalties also apply to anyone giving “false or misleading information.”

Diabetic supply advertisements offer inducements and beneficiaries reported
receiving such incentives

         Fifteen percent of beneficiaries reported receiving incentives from suppliers. The
         incentive most often cited by beneficiaries was a free monitor. Seven percent of supplier
         survey responses indicated that suppliers had passed on incentives to beneficiaries. The
         most prevalent inducement mentioned (77 percent) was a free monitor followed by a




Marketing of Blood Glucose Test Strips             9                                      OEI-03-98-00231
         discount on the test strips (18 percent). Three suppliers responded that they passed on
         monitor rebates to beneficiaries. Another two suppliers noted that billings for test strips
         were reduced by the discounted amounts. One supplier provided a beneficiary with a free
         lancing device and control solution.

         We found that advertisements in newspapers and periodicals, leaflets and flyers located in
         pharmacies, and coupons and discount offers concentrated on putting monitors into the
         hands of diabetic patients. Since test strips are designed to be used only in monitors with
         the same brand names, these inducements obviously were crafted to generate sales of
         those test strips.

         Some inducements involving monitors may be in violation of the anti-kickback statute. A
         typical inducement relating to a test strip purchase requires the customer to buy 100 test
         strips. The monitor would then be “free.” Other inducements involve a combination
         rebate-trade-in typically ranging from $35 to $85 depending on the type and quality of
         the monitor being offered. Often, a range of monitors is offered in the inducement. With
         the trade-in along with the rebate, the monitor would then be “free” to the customer.

         Other advertisements relating to monitors included coupon offers, “free” monitors with
         purchase of 50 test strips, and a “free monitor, up to $50.” We also encountered an
         advertisement for a “diabetic care seminar” which featured “free” attendance at the
         seminar along with a “free monitor” with a purchase of 50 test strips.


Beneficiaries received test strips automatically from mail-
order suppliers

Test strips often sent to beneficiaries automatically

         We found that many beneficiaries received their test strips from suppliers automatically
         even after guidelines were issued prohibiting automatic shipping. With the onset of the
         expanded coverage policy on July 1, 1998, the DMERCs issued instructions which
         stipulated that suppliers may not automatically furnish repetitive supplies to beneficiaries
         unless the beneficiary or caregiver specifically requested the supplies. The new guidelines
         further stated that suppliers may not initiate a refill of an order or automatically dispense
         a quantity of supplies on a predetermined basis, even if such action had been authorized
         in advance by the beneficiary or caregiver.

         During telephone interviews, we asked beneficiaries if test strips were currently being
         delivered to them automatically. At least 6 months after the implementation of the policy
         prohibiting automatic shipment of test strips, 46 percent of beneficiaries who got their



Marketing of Blood Glucose Test Strips            10                                      OEI-03-98-00231
         strips in the mail stated they were currently receiving their test strips automatically.
         There was no prior authorization. This does not differ greatly from the 58 percent of
         beneficiaries who received test strips in the mail who said their 1997 supplies were also
         sent to them automatically without a preceding supplier contact to determine the need for
         more strips.

Many beneficiaries receive test strip supplies via mail or delivery services

         More than half of the beneficiaries in our sample received new supplies of test strips in
         the mail or from delivery services such as United Parcel Service. Forty percent of
         beneficiaries picked up test strips in person while another 4 percent received delivery
         from a company employee. This information supports how suppliers characterized their
         companies on supplier survey instruments. Forty-four percent of supplier surveys
         indicated that supplies were “mail-order.” Another 16 percent used a label which did not
         imply an entity which primarily engaged in mail-order services, such as “retail pharmacy.”
         Other designations commonly cited, such as “diabetic supply company” and “medical
         supply company” typically provide both mail-order and pick-up service.

         Another indicator of the dominance of mail-order companies was revealed in a question
         on the supplier survey in which we asked suppliers how they happened to supply test
         strips to the beneficiary. Forty-four percent of suppliers replied that beneficiaries had
         called them, an indication, we believe, that beneficiaries were responding to toll-free
         telephone numbers typically used by mail-order suppliers in advertisements. According
         to the responses, only 23 percent of the beneficiaries were “walk-ins.” Suppliers had
         serviced 12 percent of the beneficiaries as a result of physician referrals.




Marketing of Blood Glucose Test Strips           11                                     OEI-03-98-00231
                            RECOMMENDATIONS

This report identified a number of questionable marketing practices, including
routine waiver of coinsurance and misleading and deceptive advertising. To
counter these practices, we recommend the Health Care Financing
Administration take the following steps:

         Issue bulletins reminding suppliers who routinely waive deductibles and/or
         coinsurance or who engage in misleading advertising practices that they may be in
         violation of the Medicare and Medicaid anti-kickback law. Suppliers should be
         advised to seek legal counsel if they have any questions or concerns regarding waivers of
         deductibles and/or coinsurance or the propriety of marketing or advertising materials.

         Remind suppliers that beneficiaries must specifically request new supplies of test
         strips before they are dispensed. Suppliers must not automatically dispense new
         quantities of test strips on a predetermined basis even if beneficiaries have authorized
         such procedures previously.

         Promote supplier concurrence and cooperation with the Office of Inspector
         General’s Compliance Program Guidance for the Durable Medical Equipment,
         Prosthetics, Orthotics and Supply Industry. Suppliers who establish a compliance
         program in accordance with the guidelines should be able to maintain an ethical and
         lawful business operation.

         Advise beneficiaries, as part of its outreach service, to report any instances of
         fraudulent or abusive practices (such as misleading advertising and excessive or
         unrequested deliveries of test strips) involving their home blood glucose monitors,
         test strips, or related supplies to their DMERCs.


AGENCY COMMENTS

The HCFA concurred with our recommendations. As part of an intensive campaign to reduce
and eliminate fraudulent and abusive supplier practices, including those detailed in our findings,
HCFA cited a number of ongoing and planned initiatives. These initiatives included, (1) plans to
discuss routine waivers of deductibles and coinsurance in addition to misleading advertising at
the 2000 Beneficiary Integrity Conference, (2) reminding suppliers in DMERC bulletins and
newsletters that they must not automatically dispense new supplies of test strips unless
specifically requested by beneficiaries or their caregivers, (3) working with the National Supplier
Clearinghouse to include language in the notifications sent to suppliers awarding them billing


Marketing of Blood Glucose Test Strips            12                                    OEI-03-98-00231
numbers to read and adhere to the OIG’s Compliance Program Guidance for the Durable
Medical Equipment, Prosthetics, Orthotics and Supply Industry, and (4) continuing beneficiary
outreach efforts, which include tips on identifying improper practices involving home blood
glucose monitors and related supplies. The full text of HCFA’s comments can be found in
Appendix B.




Marketing of Blood Glucose Test Strips        13                                   OEI-03-98-00231
                                                                              APPENDIX A

                          Estimates and Confidence Intervals

The tables below contain statistical estimates presented in the findings section of this report. To
calculate the point estimates and confidence intervals for the percentage of Medicare
beneficiaries we used the SAS software package. These estimates are based on a simple random
sample design and are reported at the 95 percent confidence level. Estimates were made only for
the universe of beneficiaries with claims averaging $50 a month or more.

DIABETIC SUPPLY ADVERTISEMENTS OFFER INDUCEMENTS AND CAN BE
MISLEADING.

Table 1.
                                Beneficiaries Who Did Not Pay Coinsurance


                                                          Point         95% Confidence Interval
                                                          Estimate
 Percent of Beneficiaries Who Did Not Pay                 7.66%         4.27% - 11.05%
 Coinsurance


Table 2.
                                    Beneficiaries Who Received Incentives

                                                          Point         95% Confidence Interval
                                                          Estimate
 Percent of Beneficiaries Who Received Incentives         15.19%        11.02% - 19.36%
 from Suppliers




Marketing of Blood Glucose Test Strips               14                                   OEI-03-98-00231
                                                                                APPENDIX A


BENEFICIARIES RECEIVE TEST STRIPS AUTOMATICALLY FROM MAIL-
ORDER SUPPLIERS


Table 3.
                    Beneficiaries Who Received Test Strips Automatically in 1998

                                                          Point        95% Confidence Interval
                                                          Estimate
 Percent of Beneficiaries Who Received Test Strips        46.06%       38.44% - 53.68%
 Automatically after July 1, 1998


Table 4.

                    Beneficiaries Who Received Test Strips Automatically in 1997

                                                          Point        95% Confidence Interval
                                                          Estimate
 Percent of Beneficiaries Who Received Test Strips        58.33%       51.35% - 65.31%
 Automatically in 1997


Table 5.
                            Beneficiaries Who Picked Up Test Strips in Person


                                                          Point        95% Confidence Interval
                                                          Estimate
 Percent of Beneficiaries Who Picked Up Test Strips       40.50%       35.01% - 45.99%
 In Person




Marketing of Blood Glucose Test Strips               15                                  OEI-03-98-00231
                                                                        APPENDIX A


Table 6.
                   Beneficiaries Who Received Strips From a Company Employee


                                                       Point      95% Confidence Interval
                                                       Estimate
 Percent of Beneficiaries Who Received Strips From A   3.92%      1.74% - 6.10%
 Company Employee




Marketing of Blood Glucose Test Strips           16                               OEI-03-98-00231
                                                 APPENDIX B


           Health Care Financing Administration Comments





Marketing of Blood Glucose Test Strips   17            OEI-03-98-00231
                                              APPENDIX B




Marketing of Blood Glucose Test Strips   18        OEI-03-98-00231
                                              APPENDIX B




Marketing of Blood Glucose Test Strips   19        OEI-03-98-00231
                                              APPENDIX B




Marketing of Blood Glucose Test Strips   20        OEI-03-98-00231
                                              APPENDIX B




Marketing of Blood Glucose Test Strips   21        OEI-03-98-00231
                                              APPENDIX B




Marketing of Blood Glucose Test Strips   22        OEI-03-98-00231
